<html>
<title> - OVERSIGHT OF THE FEDERAL WORKFORCE: THE VIABILITY OF THE SENIOR EXECUTIVE SERVICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    OVERSIGHT OF THE FEDERAL WORKFORCE: THE VIABILITY OF THE SENIOR 

                           EXECUTIVE SERVICE
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,

                   U.S. POSTAL SERVICE AND THE CENSUS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2014

                               __________

                           Serial No. 113-134

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform





                  U.S. GOVERNMENT PRINTING OFFICE
89-782                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Federal Workforce, U.S. Postal Service and the Census

                   BLAKE FARENTHOLD, Texas, Chairman
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts, 
TREY GOWDY, South Carolina               Ranking Minority Member
DOUG COLLINS, Georgia                ELEANOR HOLMES NORTON, District of 
RON DeSANTIS, Florida                    Columbia
                                     WM. LACY CLAY, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2014....................................     1

                               WITNESSES

Mr. Stephen Shih, Deputy Associate Director, Executive Resources 
  and Employee Development, U.S. Office of Personnel Management
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Samuel Retherford, Principal Deputy Assistant Secretary, 
  Office of Human Resources and Administration, U.S. Department 
  of Veterans Affairs
    Oral Statement...............................................    15
    Written Statement............................................    17
Ms. Carol A. Bonosaro, President, Senior Executives Association
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Answers to questions for the record from Carol A. Bonosaro, 
  submitted by Chairman Farenthold...............................    50
Answers to questions for the record from Mr. Stephen Shih, 
  submitted by Chairman Farenthold...............................    53


    OVERSIGHT OF THE FEDERAL WORKFORCE: THE VIABILITY OF THE SENIOR 
                           EXECUTIVE SERVICE

                              ----------                              


                         Friday, July 11, 2014

                  House of Representatives,
    Subcommittee on Federal Workforce, U.S. Postal 
                           Service, and the Census,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:29 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Walberg, and Lynch.
    Staff Present: Melissa Beaumont, Assistant Clerk; Will L. 
Boyington, Deputy Press Secretary; Molly Boyl, Deputy General 
Counsel and Parliamentarian; Adam P. Fromm, Director of Member 
Services and Committee Operations; Linda Good, Chief Clerk; 
Jennifer Hemingway, Senior Professional Staff Member; Laura 
Rush, Deputy Chief Clerk; Andrew Shult, Deputy Digital 
Director; Peter Warren, Legislative Policy Director; Jaron 
Bourke, Minority Director of Administration; Lena Chang, 
Minority Counsel; Julia Krieger, Minority New Media Press 
Secretary; Mark Stephenson, Minority Director of Legislation; 
and Katy Teleky, Minority Staff Assistant.
    Mr. Farenthold. Good morning. The Subcommittee on the 
Federal Workforce, U.S. Postal Service, and Census will come to 
order.
    I would like to begin this hearing by reading the mission 
statement of the Oversight Committee, as we normally do.
    We exist to secure two fundamental principles: First, 
Americans have a right to know what the money Washington takes 
from them is well spent. And, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights. Our solemn responsibility is to hold government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their government. We will work 
tirelessly in partnership with citizens watchdogs to deliver 
the facts to the American people and bring genuine reform to 
the Federal bureaucracy. This is the mission of the Oversight 
and Government Reform Committee.
    And we'll start with my opening statement.
    It is critical and challenging questions surround the 
future of the Senior Executive Service. The SES was created in 
1979, was envisioned as a mobile executive corps with a broad 
view and ability to manage across the Federal Government. The 
Office of Personnel Management, the OPM, was charged with 
administering the program and assisting agencies in selecting, 
developing, and managing the most experienced segment of the 
Federal workforce.
    More than a decade ago, changes to the SES pay system were 
implemented to alleviate pay compensation and better focus--I'm 
sorry--pay compression and better focus compensation based on 
performance.
    Despite these statutory requirements, the committee's 
oversight work has shown that the government continues to lack 
the quality executive leadership necessary to administer key 
governmental services and programs. We have seen scandals like 
an senior executive relaxing in a hot tub with a glass of wine 
on the taxpayers' dime, while another refuses to cooperate with 
Congress despite her admission that her employing agency 
targeted conservative organizations for applying to tax-exempt 
status.
    Data from the OPM shows career SES employees received, on 
average, approximately $62 million in performance awards each 
year for the last 5 fiscal years, that's 2009 through 2013. At 
some agencies, 90 percent or more of the career SES folks 
received bonuses.
    Questions about the viability of SES also come to mind when 
thinking about the Department of Veterans Affairs. The VA 
became embroiled in a scandal where employees falsified 
waitlists and made veterans wait for months for needed care 
while VA executives took more than $2.8 million in bonuses. 
That was in fiscal year 2013. Clearly, they were failing to 
deliver on the agency's promise to our Nation's veterans.
    These are just some examples of the many points that need 
to be addressed to restore public confidence in government by 
increasing accountability and performance within the executive 
corps.
    So today's hearing is an opportunity to take a detailed 
look at the SES, from the assignment of SES positions to the 
accountability and compensation of individual leaders. It is a 
chance to discuss how we can institute a system that allows 
agencies to more quickly and fairly remove poor leaders whose 
appointments do not have time limitations while guarding 
against politically-motivated actions.
    Some will argue the government has all the laws, 
regulations, and tools in place to fire people. Yet in May, the 
House agreed on a need for a higher standard and overwhelmingly 
passed legislation to make senior executives at the VA at-will 
employees. One year ago, the House passed legislation to place 
SES workers on unpaid leave for misappropriation of funds, 
neglect of duty, or malfeasance.
    I look forward to discussing how these and other reforms 
can help us ensure the government hires, compensates, and 
manages the executive workforce to meet the needs of their 
taxpayer-funded mission.
    At this point, I will now recognize the distinguished 
ranking member, the gentleman in Massachusetts, Mr. Lynch, for 
his opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing and the purpose of examining 
issues concerning performance, management, and accountability 
in the Senior Executive Service.
    I'd also like to welcome our witnesses. Thank you for your 
willingness to help this committee with its work.
    Recent reports concerning unacceptable patient wait times 
and inappropriate scheduling practices at facilities within the 
Department of Veterans Affairs healthcare system have again 
underscored the importance of enacting meaningful reform. In 
addition, allegations of wrongdoing by senior officials at the 
Phoenix VA Medical Center and several other VA clinics 
nationwide have given rise to the question of whether we must 
also reform the current system under which Federal Government 
agencies evaluate and compensate their senior executive 
personnel and hold them accountable for poor job performance.
    In the context of VA, Congress has recently undertaken a 
series of bills that seek to strengthen department management 
of Senior Executive Service personnel. Including among these 
efforts is H.R. 4031, the Department of Veterans Affairs 
Management Accountability Act, which passed the House of 
Representatives by a vote of 309 to 33.
    This legislation would authorize the Secretary of Veterans 
Affairs to remove an individual from Senior Executive Service 
at will, as the chairman has noted, upon the Secretary's 
determination that the performance of the individual warrants 
such removal.
    Most recently, Senator Kelly Ayotte of New Hampshire and 
Senator Claire McCaskill of Missouri have introduced Senate 
bill 2545, legislation to require the Secretary of Veterans 
Affairs to revoke bonuses to any employees involved in the 
manipulation of electronic patient waitlists.
    I would note that these measures are largely based on the 
management issues that have been cited as specific to the 
Department of the VA. As noted by White House Deputy Chief of 
Staff Rob Nabors in his June 27th report to the President on 
issues impacting timely care at the VA, ``a corrosive culture 
has led to personnel problems across the Department that are 
seriously impacting morale and by extension the timeliness of 
health care. The problems inherent within the agency with an 
extensive field structure are exacerbated by poor management 
and communication structures. Distrust between some VA 
employees and management, a history of retaliation toward 
employees raising issues, and a lack of accountability across 
all grade levels.''
    While I am positive that that is not the case in all VA 
facilities, and we did a very stem-to-stern review of the three 
VA hospitals in my district, and they received 5-star rating on 
review, and I do not want to impugn all VA employees, I do 
strongly believe that we must make every effort to hold 
accountable those senior agency personnel who are found to be 
complicit in wrongdoing at the VA.
    It is my understanding that some of my colleagues across 
the aisle may now be considering legislation that seeks to 
dramatically impact the Senior Executive Service across the 
board in all agencies, even those that are doing very well, 
including a proposal that would subject Senior Executive 
Service personnel at every Federal agency to at-will 
determination without notification, due process, or the right 
of appeal.
    I would urge my colleagues to exercise caution and due 
diligence before taking such a severe step. I want to remind my 
colleagues that such a reform would eliminate one of first and 
most significant Federal laws to prevent political patronage 
and corruption, the Pendleton Act, passed back in 1883. And 
thanks to the Pendleton Act, the great majority of our nearly 
7,400 career reserves and general members of the Senior 
Executive Service and dedicated--are dedicated and effective 
nonpartisan public servants.
    With that, I would just like to close and say I--that I 
look forward to hearing the testimony of our witnesses.
    Thank you. I yield back.
    Mr. Farenthold. Thank you very much.
    Mr. Farenthold. Just as a matter of housekeeping, we do 
have early votes in the House today. Hopefully, we will get 
finished before the votes. If not, we will recess and come back 
and complete immediately following the votes.
    And also, members will have 7 days to submit opening 
statements for the record.
    Now we will recognize our panel. Mr. Stephen Shih is Deputy 
Associate Director of Executive Resources and Employee 
Development at the United States Office of Personnel 
Management. Welcome sir.
    Mr. Samuel Retherford is a Principal Deputy Assistant 
Secretary of the Office of Human Resources and Administration 
at the United States Department of Veterans Affairs. Welcome to 
you, sir.
    And Ms. Carol A. Bonosaro is president of the Senior 
Executives Association. Welcome, Ms. Bonosaro.
    Pursuant to the committee rules, all witnesses will be 
sworn in before they testify. Would you please rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record reflect all witnesses have answered in the 
affirmative.
    Please be seated. Thank you very much.
    Again, we're going to follow the normal rules of the 
committee, where you will have--each have 5 minutes to make 
your opening statement, and then we will rotate through the 
panel up here with a 5-minute rounds of questions.
    So let's go ahead and begin with Mr. Shih. You are 
recognized for 5 minutes, sir.


                       WITNESS STATEMENTS

                   STATEMENT OF STEPHEN SHIH

    Mr. Shih. Thank you, Chairman Farenthold.
    Chairman, Ranking Member Lynch, and distinguished members 
of the subcommittee. Thank you for holding this hearing and for 
inviting me to speak today about the Senior Executive Service 
and the United States Office of Personnel Management's role in 
managing the SES. I appreciate your interest in ensuring the 
Federal Government is doing everything possible to enable and 
hold accountable an effective senior leadership corps.
    Members of the SES are front and center in managing the 
challenges that come with operating in a budget-constrained 
environment where Federal agencies are often asked to continue 
to carry out their critical missions, and in some cases, 
increased requirements with reduced resources.
    SES members are responsible for providing leadership within 
agencies and across agencies to meet the changing needs and 
priorities of the American people, and to provide consistency 
in leadership across administrations.
    SES members are directly accountable for individual and 
organizational performance. Their compensation is based upon 
their performance, and they are subject to removal from the SES 
for performance or from Federal service entirely for misconduct 
and other reasons.
    The responsibilities for human capital management of the 
SES have been divided by statute between agencies and OPM. And 
this division reflects a balancing of the important needs of 
individual agencies and the important needs of the entire 
Federal Government.
    On one hand, agencies strongly need direct operational 
control and flexibility to apply their expertise in best 
addressing their mission and agency-specific requirements. On 
the other hand, the Federal Government in our entire Nation 
have a strong interest in ensuring that agencies operate 
consistently and efficiently, accomplished through the 
centralized leadership, government-wide standards, and 
oversight for which OPM is responsible.
    For example, OPM is required, in consultation with OMB, to 
review requests from each agency to allocate a specific number 
of SES positions for each agency. And this responsibility helps 
ensure appropriateness and consistency in the establishment of 
SES positions. In this way, OPM also helps ensure appropriate 
numbers of senior executive positions are in place within each 
agency and across the Federal Government to enable effective 
and continual operations of government agencies and programs.
    Agencies have authority to recruit, assess, and hire SES 
employees. Specifically, agencies make career SES appointments 
through a competitive merit staffing process that includes 
requirements to ensure fair and open competition and selection 
based upon merit.
    OPM is required to establish one or more Qualifications 
Review Boards, QRBs, to certify the executive qualifications of 
agencies' proposed candidates for initial appointment to the 
SES cadre.
    OPM also has reserved the authority to review agencies' 
proposed career SES appointments to ensure that they comply 
with all merit staffing requirements and are free of any 
impropriety.
    Agencies also have the authority to determine, in 
accordance with OPM criteria, initial pay for SES members, and 
then to determine additional compensation through salary 
adjustments and performance awards. These are a combination of 
tools for the overall compensation of the Senior Executive 
Service members based on performance.
    OPM annually reviews data on agencies' SES performance 
ratings, pay adjustments, and performance awards to assess 
whether agencies differentiate pay based upon performance, 
including appropriately granting SES performance awards to 
encourage excellence in performance. Again, this is OPM's 
responsibility to help provide appropriateness and consistency 
across the Federal Government.
    Each agency is required to develop one or more performance 
appraisal systems for SES members subject to OPM standards and 
the agency's appointing authority. Typically the agency head 
issues final performance ratings and determines correlating 
compensation for SES members in the agency.
    OPM is responsible for reviewing the agency's SES 
performance appraisal system for compliance with government-
wide requirements of law, regulations, and OPM standards to 
determine appropriateness for OPM approval of the system. This 
approval allows the agency to implement the system. 
Subsequently, OPM may review the agency's implementation of the 
system to determine adherence to government-wide law, 
regulations, and standards.
    Based upon this review, OPM may, with OMB concurrence, then 
certify the system, and the certification enables the agency to 
access the higher rates of pay to recruit and compensate their 
senior executives.
    Agencies have the authority and responsibility, and in 
specific situations, are required by law to address poor SES 
performance by reducing pay, reassigning or transferring SES 
members, or removing them entirely from the SES.
    Agencies also have the authority and responsibility to 
address SES disciplinary matters, including misconduct, neglect 
of duty, or malfeasance, by taking actions against the SES 
members, such as reductions in pay, suspensions lasting more 
than 14 days, or removal entirely from the Federal service.
    OPM takes seriously its responsibilities pertaining to the 
SES and remains committed to providing centralized leadership 
and oversight on the management of the SES members across the 
government. Thank you for inviting me here today, and I am 
happy to answer any questions you may have.
    Mr. Farenthold. Thank you very much, Mr. Shih.
    [Prepared statement of Mr. Shih follows:]

    [GRAPHIC] [TIFF OMITTED]     

    Mr. Farenthold. Mr. Retherford, you are now recognized for 
5 minutes for your opening statement.


                 STATEMENT OF SAMUEL RETHERFORD

    Mr. Retherford. Thank you. Chairman Farenthold, Ranking 
Member Lynch, distinguished members of the subcommittee, thank 
you for this opportunity to appear before you today.
    I would like to express on behalf of the VA workforce our 
commitment to serve veterans. To accomplish this mission, we 
must recruit and retain the best talent, many of whom require 
special skills in health care, information technology, and 
benefits delivery. In general, VA requires talented executives 
to manage the complex set of VA facilities and programs. We are 
competing in tough public and private labor markets, and to 
remain competitive, we rely in part on incentives and awards 
that attract and retain talent and recognize superior 
performance.
    I want to highlight that awards are part of the SES pay 
structure. As outlined in the statute, awards were designed to 
be part of SES compensation. That is the premise of pay for 
performance. Failure to recognize performance puts VA at risk 
of losing our most effective senior talent.
    Most critical to applying higher salary and performance 
awards is having an OPM-certified appraisal system. Without OPM 
certification, salaries are restricted and awards are not 
permitted. The OPM process is rigorous and requires that 
performance distinctions must be made. VA has such an executive 
appraisal position approved by OPM.
    That said, we definitely recognize that we must do better 
in holding our leaders accountable. Fundamental to obtaining 
accountability is rigorous implementation and oversight of 
performance plans that align organizational goals to 
executives.
    To have a good program, we must improve our performance 
management capabilities. The VA leadership must also more 
thoroughly engage in managing SES performance plans to include 
setting and verifying outcomes and documenting shortcomings.
    Performance management has many challenges. By its nature, 
it is very subjective and complex. It is used to identify 
superlative and poor performers, and it is the foundation of 
development, mentoring, and accountability.
    Our senior executives must know how to craft good outcome-
focused objectives. They must fully understand the process and 
know how to document deficiencies so that decisions on 
performance will be defensible and prevail during the due-
process steps that follow those decisions.
    In the evaluation of performance, the process VA uses is 
only in the second year. It is described in my written 
testimony, but I would like to touch on a few points.
    First, we use the OPM-approved government-wide form and the 
five rating standards. Executive performance objectives are 
assembled into five OPM-critical elements or competencies and 
are weighted by VA with the heaviest weightings of 40 percent 
on the results-driven element and 40 percent in the two 
elements for leading. With more experience with the new system, 
we believe there will be greater consistency and clarity.
    Second, I want to point out that VA's performance appraisal 
system goes beyond minimum OPM standards. VA added a reviewing 
official, which is not required, as part of the rating process 
and added performance review committees that conducted initial 
review of appraisals prior to review by the VA Performance 
Review Board.
    These new features provide four levels of scrutiny: rater, 
reviewer, committee, and the board, prior to recommendation to 
the Secretary.
    Third, VA added our I Care Values of integrity, commitment, 
advocacy, respect, and excellence to leading people. We are 
currently working to add standards of conduct to our SES 
appraisal system.
    And lastly, we are working towards moving away from paper 
towards information technology solution. This is our first year 
of an automated system. Automating our performance management 
system will enable visibility and oversight of the process, 
allow full and timely review of performance plans as they are 
being developed, and to provide a repository for documentation. 
We are also working to automate talent management, which will 
allow visibility of requirements and the skill sets of our 
executives.
    In closing, I am a recent addition to VA, having arrived 
last January. I have read the reports, assessed many of our 
systems and capabilities, and noted areas of concern. We are 
working hard on solutions, which includes revising policies, 
establishing new executive training, and applying information 
technology.
    The Acting Secretary is committed to use all authorities to 
enforce accountability, restore trust, and change the VA 
culture. I believe our efforts in improving performance 
management in the VA will set many of the conditions for the 
new VA culture.
    Thank you for this opportunity to appear before you today. 
I look forward to answering your questions.
    Mr. Farenthold. Thank you, Mr. Retherford.

    [Prepared statement of Mr. Retherford follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Farenthold. Ms. Bonosaro, you are up for 5 minutes.


                 STATEMENT OF CAROL A. BONOSARO

    Ms. Bonosaro. Chairman, Ranking Member Lynch, and members 
of the subcommittee. Thank you for the opportunity to testify 
today.
    The Senior Executives Association represents nearly 7,000 
career members of the SES. For several years, we have been 
sounding the alarm about the challenges facing the SES in areas 
of needed reform. Many of these issues have now become critical 
in the face of problems at the Department of Veterans Affairs. 
So I would like to make just two points:
    First, with regard to the state of the SES. A strong SES is 
critical to effective agency operations and workforce 
management. Yet there are serious risks to both the short- and 
long-term viability of the senior career executive system.
    Career SES are highly qualified professionals who oversee 
sizeable agency budgets and complex programs, have a large span 
of control, and are often also technical experts in their 
fields, and face a rigorous selection process to enter the SES. 
They are in a completely different personnel system with no 
locality pay, all pay adjustments and awards based on 
performance and entirely discretionary with the agency, and 
they have no effective appeal rights.
    The perception seems to be that a certain number of 
executives must be poor performers and that the ratings of many 
are inflated. If a large number of senior executives were not 
working at the ``fully successful'' or better level, it would 
indicate an ineffective selection process.
    Where there are poor performers, sufficient remedies exist 
to hold them accountable with relative ease. And let me make 
clear, SEA believes that they should and must be held 
accountable.
    A February survey of our membership found 51 percent of 
respondents rating overall morale among the SES at their 
agencies as low or very low. The rate of retirement of current 
SES is up 40 percent since 2009. And talented, able GS-14s and 
15s are declining to go into the SES. Thus the service may well 
become a place of last resort as high-performing employees take 
their skills to the private sector.
    What's led to this situation? An essentially broken pay-
for-performance system, the pay freeze, substantial reduction 
in performance awards, a suspension of the Presidential Rank 
Awards in 2013, ever increasing challenges to do more with 
less. But also, a series of punitive legislative proposals to 
penalize all senior executives, regardless of their performance 
and an atmosphere which inhibits risk-taking and innovation 
because failure is unacceptable and in which too many 
executives facing investigations have been treated as guilty 
until proven innocent.
    SEA recommends some essential reforms for the SES. 
Outlined--they are outlined in our written statement. And we 
stand ready to work with the subcommittee in a comprehensive 
review of the system to ensure reforms that promote fairness, 
transparency, and efficient government management. The 
continued viability of the SES depends on such reform.
    My second point has to do with the serious allegations 
regarding operations at the VA. And we fully appreciate 
Congressional concerns regarding those allegations. However, 
the focus on career leadership is wrong. The systemic issues at 
VA will remain, irrespective of changes in the personnel 
system. Because these are systemic issues, they are ones which 
political leadership has repeatedly failed to address. 
Political leadership, not career executives, call the shots, to 
use the vernacular. Tools exist to fire senior executives with 
ease, and it is total nonsense to suggest that they don't. If 
they are not being used, it is for one of two reasons: Either 
the executive isn't actually accountable, or political 
leadership isn't willing to use the tools.
    To provide just one example, falsifying government records 
is a criminal act. If someone is believed to have falsified 
records, a case can and should be referred to the IG, and upon 
verification the case should be referred to the Department of 
Justice for prosecution.
    Punishing all VA senior executives by banning performance 
awards, irrespective of performance, or creating at-will 
employment in the SES which could enable a new administration 
to clean out the Department and bring in ill-qualified 
candidates, will do more harm than good.
    The best current executives will retire, excellent 
candidates will refrain from applying. And who will be left to 
provide the care and services which veterans need and deserve?
    What has been proposed will create more harm than good. But 
what SEA is suggesting is not a quick or easy fix. But if we 
care about ensuring that taxpayers have the best career 
leadership corps necessary to provide quality programs and 
services, then the focus should be turned to needed reforms to 
the SES system and to holding political leadership accountable.
    Mr. Farenthold. Thank you very much, Ms. Bonosaro.
    [Prepared statement of Ms. Bonosaro follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Farenthold. And I will begin with the first round of 
questions.
    Mr. Retherford, you testified that the bonus structure was 
actually, you know, part of the compensation package, I 
believe--I don't remember your exact words. But you said it is 
used as consideration of the part of overall compensation 
package. When that's the case, then, is there--doesn't that 
create a reluctance to not award the bonuses when, in fact, it 
hasn't been earned, or there hasn't been exceptional 
performance?
    Mr. Retherford. Chairman, not necessarily so. The 
performance plans are evaluated through a various--the four 
levels I mentioned, the rate, review, official review 
committees, and the board. And recommendations go to the 
Secretary.
    We make distinctions in evaluation. Our highest level, the 
``outstanding'' rating, we only had 21 percent this year. And I 
think at the next level, we had--I don't have the exact 
numbers. But government-wide, the ``outstanding'' rating is 
much higher than that. But the awards, performance awards are 
only given to the highest performers who clearly exceed their 
performance objectives and their performance plan.
    Mr. Farenthold. Now, you talked about rolling out a system 
of automated metrics for determining bonuses. My concern with 
that is in the recent scandal that we have seen with the VA, it 
was like that system was being gamed. Rather than entering 
appointment requests into the computer system, you saw pressure 
on folks at the VA to keep separate paper lists.
    So the automated metrics system then wouldn't have caught 
those delays. What actions are being taken to ensure the 
system--other automated metrics aren't being gamed in the same 
fashion?
    Mr. Retherford. Thank you, Mr. Chairman. The information 
technology system I referred to will automate all the SES 
performance plans across the VA. We have over 501 senior 
executives. Right now it is all paper. This was the first year 
we required performance plans to be put into an automated 
system. Therefore, we can look and see what the performance 
objectives are. We can review all the performance plans at the 
essential level. Not only that, we can make sure they are all 
done within the first 30 days of the rating period. We can make 
sure counselings are done. And will have an audit trail of 
documents of mid-year assessments and identification of 
shortcomings. Prior to that, we had no ability at an 
organization as large as the VA
    Mr. Farenthold. Mr. Retherford, I don't mean to sound like 
I'm picking on you, but one of my big concerns is the VA. We 
have a responsibility to keep the promises we have made to our 
veterans. So I am a little bit worried.
    And then the committee has learned that in 20--fiscal year 
2011 and 2013, 339 SES employees at the VA charged an average 
of 90 days' administrative leaves for various reasons, as 
compared to a government-wide average of 4 days per SES 
employee during the same time period for various reasons.
    Would you explain the reasons behind the VA high average 
use of administrative leave by SES?
    Mr. Retherford. Mr. Chairman, I don't have the information 
on that. I would like to take that for the record.
    Mr. Farenthold. Would you please get back to us on this?
    Mr. Retherford. I will.
    Mr. Farenthold. Can you tell us what some of the reasons or 
activities SES employees are allowed to use administrative 
leave?
    Mr. Retherford. Administrative leave is used for a variety 
of reasons. In the current system, we can't tell exactly what 
the reasons are. But they are for investigations; a person will 
be put on administrative leave when they can't perform duties 
in the VA where it is just too inconvenient or present a bad--
--
    Mr. Farenthold. I'm quickly running out of time and I do 
have some questions about the SES overall.
    So, Mr. Shih, what, if any, impediments are there to 
terminating poorly performing SES employees across the Federal 
Government and within the VA?
    Mr. Shih. Thank you, Mr. Chairman. I appreciate the 
question.
    The current system, the SES statute and regulations by OPM 
provide tools for agencies to quickly address poor performance 
by Senior Executive Service members and also misconduct and all 
other types of wrongdoing.
    With respect to performance, I'd like to make a couple of 
quick points. It is very important for agencies to pay close 
attention to performance during the first year, which is a 
probationary period of SES's initial appointment to the SES, 
because there are great flexibilities here for agencies to be 
able to immediately remove poorly performing probationary 
SESers from the Senior Executive Service.
    Following the probationary period, there are strong 
flexibilities. Agencies can reduce pay, based upon poor 
performance. One unsatisfactory performance rating requires an 
agency to reassign, transfer, or remove the senior executive 
from the SES. All that's required is a written notification 30 
days before the effective date. There is no right of an MSPB 
appeal. There is the availability of an informal hearing before 
the MSPB within 15 days, but that informal hearing is not 
binding and it doesn't hold up the effective action.
    Two unsatisfactory ratings in a period of 5 consecutive 
years requires to the agency to remove the senior executive 
member. Same notification, same appeal rights, which is only an 
informal hearing before of the MSPB.
    And then two, less than ``fully successful'' ratings in a 
period of any 3 consecutive years requires the agency also to 
remove the SESer.
    Then on the conduct side, again, there are stronger 
flexibilities for an agency to deal with probationary SESer. 
And so my recommendation is, again, for agencies to have very 
strong scrutiny of their senior executives' performance and 
conduct during that probationary period.
    Following the conclusion of the probationary period, for 
any reasons related to misconduct, neglect of duty, 
malfeasance, or other reasons, agencies can take a number of 
actions, including reduction in pay, removal from Federal 
service, or suspension greater than 14 days.
    What's required is 30 days' advanced written notice, a few 
other procedural rights, 7 days for the senior executive to 
respond, and then that executive does have the right to file an 
MSPB appeal.
    Mr. Farenthold. All right. I am out of time. I will follow 
up on that if we get around to a second round of questions.
    Mr. Lynch, we will recognize for you your questions.
    Mr. Lynch. Thank you, Mr. Chairman.
    Again, thank you for being here.
    I think we are all familiar with the problems at the VA 
regarding the treatment delays for our veterans. And also, 
falsified wait times that were used to determine awards and 
also salary increases.
    I also understand that the inspector general and the VA 
have not completed their investigations and audits in order to 
determine the employees who were responsible for these 
unacceptable practices.
    But I do think it makes sense to go after those who need to 
be held accountable, who made these decisions. And I want to 
find out from our discussion whether the VA has the tools to do 
what they need to do, whether they need additional 
authorization from Congress to hold people accountable.
    At a very basic level, these veterans have earned, earned 
this right to excellent health care. They have served. We have 
an obligation now to step up and meet our obligation to make 
sure that these veterans and their families are cared for. It 
is a very, very high bar. This is a--when you think about the 
way our military works, we're asking people to put their lives 
aside, to put on that uniform, to serve our country. And so 
that's a very deep and abiding obligation that they have taken 
here. And what we are promising, what this Nation has promised 
is that we will meet that obligation and we will honor that 
service. And one part of how we honor that service to those 
veterans is to provide decent health care. And in this case, we 
have dropped the ball. We have failed in our obligation as a 
nation. And that's serious, that is dead serious. And so we 
need to--we need to take a good hard look at this.
    Mr. Retherford and Mr. Shih, does the VA currently have the 
authority to rescind or claw back the performance awards that 
have been rendered to senior executives who may be culpable in 
this case?
    Mr. Retherford. Congressman Lynch, currently we do not have 
the authority to go back and rescind an award. The performance 
plan, once done, is final.
    Mr. Lynch. Okay. So what are the parameters and--what's the 
timetable that--well. You're saying you have no recourse 
currently?
    Mr. Retherford. That's correct, sir.
    Mr. Lynch. Okay. So we need to pass legislation.
    Mr. Retherford. Sir, if legislation was there, the VA would 
use all authorities to enforce accountability.
    Mr. Lynch. Okay. Would--I'm going to ask you, would each of 
you be supportive of legislation that would allow the VA to 
downgrade the performance evaluations and rescind the bonus 
awards for those who were found to be culpable in either 
falsifying or, you know, perpetrating this fraud upon our 
veterans and their families?
    Mr. Retherford. Congressman Lynch, we would use all 
authorities granted.
    Mr. Lynch. But would you support the legislation? That's 
what I'm asking.
    Mr. Retherford. The legislation to allow us to go back and 
change ratings once we find--once investigations are completed 
and we found that there was wrongdoing?
    Mr. Lynch. Yes.
    Mr. Retherford. We have indicated that, yes, sir, we would 
use all authorities.
    Mr. Lynch. Because I intend to introduce legislation in the 
House here that would revoke the bonuses paid to VA employees 
in the manipulation--that were culpable in the manipulation of 
appointment wait times but also ensure that the performance of 
these employees are downgraded accordingly.
    You know, we're going to have to recognize the due process 
rights. As I said, you know, in my own inspection, going to the 
VA hospitals in my district, talking to the patients, talking 
to the families, meeting with the administrators, we found a 
very high level of performance. So I am interested in focusing 
like a laser on those individuals who were culpable in this 
case. And getting back those--those bonuses. And also--and also 
putting that out as a marker to those in the future who might 
think about manipulating the process in a way that harms our 
veterans.
    So I appreciate the witnesses' testimony. And look forward 
to working with you.
    Mr. Farenthold. And if you will give me a copy of that 
legislation, I would like to read it and possibly sign on as a 
cosponsor. I agree with the principles there a hundred percent.
    Mr. Walberg, you are now recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
witnesses for being here today.
    Mr. Retherford, how many SES employees have been removed 
from their positions this year?
    Mr. Retherford. I am not aware of the number this year. I 
do have the number for last year.
    Mr. Walberg. What about the past 5 years?
    Mr. Retherford. Past 5 years, I don't have. I will take 
that for the record.
    Last year, we removed six employees, six executive 
employees.
    Mr. Walberg. Six executives. Okay.
    Records that I have here for fiscal years 2010, 2013 
indicate that all 470 VA senior executives received performance 
ratings of ``fully successful'' or higher. In fiscal year 2010, 
76 percent of the VA SES received bonuses averaging $15,000. In 
fiscal year 2011, 74 percent of the VA SES received bonuses 
averaging $11,500. In fiscal year 2012, 54 percent of the VA 
SES received bonuses of $12,000. In fiscal year 2013, 78 
percent of VA senior managers had performance ratings that 
exceeds ``fully successful'' or ``outstanding.'' And more than 
2.8 million was paid out in bonuses to executives.
    Is it likely and realistic that all 470 senior executives 
would receive the same ``fully satisfactory'' rating today?
    Mr. Retherford. It is not. The data do not tell the whole 
story. The VA is at fault for not completing many of the 
performance evaluations once we remove an executive. For 
example, the six we removed last year, we should have rendered 
performance appraisal on them. They had 90 days at the job.
    The administration, after the action to remove, whether it 
was performance or misconduct, was not completed, not 
reflected. We find that is the case in many of the years that 
we looked at.
    The administration never caught up, the unsatisfactory 
performance was never captured, and therefore----
    Mr. Walberg. And again, the main reason for not capturing 
that, catching up with the problem?
    Mr. Retherford. Failure to adhere to our policies and 
process. The information technology will help us a long way in 
monitoring this type of administrative details.
    Mr. Walberg. Did the bonus system help lead to this 
problem?
    Mr. Retherford. I don't think the performance award system 
led to this problem. The performance awards in 2013 were 
greatly reduced down to an average of about 9,000 to about 5.5 
percent of base salary. So it has been coming down.
    Mr. Walberg. You testified that the absence of ratings in 
these two lowest categories is not uncommon for most agencies. 
Adding that in all of the Federal Government, there were only 
12 senior executives rated ``minimally satisfactory'' and three 
rated ``unsatisfactory'' in fiscal year 2012. Do you really 
believe that almost 100 percent of career senior executives 
were successful in their jobs?
    Mr. Retherford. I do not. And I don't believe the data tell 
the whole story. Like I said, reports were not rendered after 
actions were taken. And, additionally, poor-performing senior 
executives tend to depart and resign and leave before 
appraisals are submitted. But it is a matter of administration. 
You still have to complete the performance plan.
    Mr. Walberg. And clean up with what is left behind.
    Mr. Retherford. Absolutely. Absolutely. That has not been 
done.
    Mr. Walberg. We have certainly seen that with the VA and 
the IRS. We could talk about that all day here as well. The 
supervision that went on that allowed destruction of emails and 
the like, a real problem.
    Let me ask a general question for all of you, if you'd care 
to answer. What, if any, impediments are there to terminating 
poorly performing SES employees across the Federal Government 
and at the VA? And I'm open to answers from anyone.
    Mr. Retherford. I think we have all the authorities to do 
our job and hold folks accountable, executives accountable. The 
hardest part is performance management, and evaluation is 
subjective. It's hard. You have to document. You have to know 
what you're doing to be defensible in the due process steps 
that follow. So you have to have a good system. You have good 
objectives aligned to the executive. You have to track them, 
you have to counsel, you have to document. Because at the end, 
you have to defend your decision. I think that's the hard part. 
Executives knowing how to confront poor performance.
    Mr. Walberg. Ms. Bonosaro?
    Ms. Bonosaro. I would argue that I think what Mr. 
Retherford has suggested would be what would be fair; in other 
words, to make perfectly clear the executive, here is what we 
expect from you, we're going to hold you to it. The trick is to 
be certain you have a good enough system that really is--
enables to you evaluate that.
    But the fact of the matter is that the agency, the 
Department does not have to put on a major defense if they 
decide to fire a senior executive. And that's a matter of 
spine. It is called take the action when it's appropriate. 
Because that executive has no effective appeal right if they 
are fired for poor performance. They can go to the MSPB. And if 
the MSPB agrees with them that their firing was inappropriate, 
it's only a recommendation to the agency. And which the agency 
or department can ignore. So it's not as though there is a 
major bureaucratic effort that one has to go through. And it is 
quite true that many executives who have not done well, in 
fact, will retire or get the message and move on out.
    Mr. Walberg. Thank you. My time has expired. Yield back.
    Mr. Farenthold. Thank you very much. And I've got just a 
couple more questions, and we'll give Mr. Lynch an opportunity 
to ask any questions that he may still have.
    So Mr. Shih, it's my understanding that a senior executive 
removed for performance can retain his or her SES pay if placed 
in a position with lower pay, such as a GS-15.
    Can you help me understand why we would allow executives 
removed from their position for performance to retain their pay 
if placed in a new position?
    Mr. Shih. Chairman, thank you very much for your thoughtful 
question. It is a question that I believe is open to 
discussion.
    The point that I would have emphasize is the SES statute, 
all of its purposes are intended to foster, support, and enable 
the recruitment and retention of top executive talent into the 
Federal Government. The purpose of the statute is to provide 
conditions of employment, including compensation and civil 
service protections that would make the Federal Government an 
attractive employer and make the Federal Government an 
attractive place to work.
    And so all of these provisions that we have been discussing 
today relating to performance, relating to compensation, 
relating to due process and also protections such as the fall-
back position and safe pay are intended again to foster an 
environment where we can recruit the top talent.
    Mr. Farenthold. Do you think that one of the unintended 
consequences of that is you create a situation where if you can 
check all the boxes, you're fine, and you can hang on to your 
job, and there's no real incentive to innovate and for 
excellence. I mean, you look at your system for rating 
employees. You'd expect there to be a bell curve with, you 
know, satisfactory and slightly above satisfactory being the 
high point in the bell curve. But we see practically no folks 
getting unacceptable reviews. And a very high percentage at the 
very top.
    Mr. Shih. Thank you, Chairman. I believe that with respect 
to any type of personnel system, including a performance 
appraisal system, the effectiveness of that system depends 
greatly on the implementation of that system. And so some of 
the proposals that have been discussed in terms of providing 
new tools and new flexibilities and more control for agencies 
to be able to address situations, I think the answer still is 
going to remain the same, which is that the success of any of 
those new tools or new systems is going to depend on the 
implementation.
    The other point I'd like to add to that very briefly is 
that following up on Representative--Ranking Member Lynch's 
comments regarding actions that employers can take to deal with 
poor performance, I'd also like to remind the subcommittee that 
agencies have the authority to address some of these issues 
after the fact, not only through performance, but also through 
conduct, malfeasance, neglect of duty, and even law enforcement 
proceedings.
    Mr. Farenthold. Great. And let me visit with you for a 
second, Ms. Bonosera; I didn't mean to ignore you throughout 
this whole hearing.
    In the past you've--and in some of your testimony, you've 
expressed concerns that several so-called scandals have 
surfaced. As a result, the SES is bearing the brunt of poor 
judgment and the damaging actions of a few.
    My frustration is that it seems with each oversight hearing 
that we have and each oversight review and each ID report, we 
see an example of poor performance and misconduct.
    Yesterday, the Commerce Department inspector general found 
that high ranking executive in the U.S. Patent and Trademark 
Office improperly used her position to ensure the hiring of the 
live-in boyfriend of an immediate family member. The IG 
investigated after receiving a whistleblower complaint and 
found not only did the executive exert undue influence in the 
hiring process, but the applicant was not among the most 
qualified candidates, as determined by the PTO hiring 
officials.
    In fact, to the applicant was twice rejected. The executive 
then interviewed and created an additional position 
specifically for the applicant.
    That intervention doesn't seem proper to me.
    The senior executive threatened to the sue the inspector 
general for making the report publicly available.
    It is these examples that have damaged and shaken the faith 
that Congress has in the leadership.
    What is the SES doing to tighten up its ranks? And do you 
think this is acceptable behavior?
    Ms. Bonosera. Of course that's not acceptable behavior, and 
it should be dealt with appropriately.
    You know, I think that's the really sad part of this. We've 
got so many executives that are doing a phenomenal job. And 
then we have some who have behaved egregiously. And when they 
do, they should be dealt with, up to and including, where it is 
appropriate, criminal prosecution. Because I go back to the 
point, if senior executives are found to have ordered or 
falsified records, government records, that includes their own 
results for performance reviews, for waiting time, whatever, 
that is a criminal act. And all we need to do is refer it for 
prosecution when it has been found to have been determined----
    Mr. Farenthold. But you don't have to suggest that for us 
to terminate an executive it has to rise to the level of 
criminal offense. There have got to be other----
    Ms. Bonosera. No. But the point is that those are criminal 
acts. And I think a few instances of prosecution, where it is 
found that that has been done, will send the message pretty 
clearly. I mean, we are talking about making the entire Senior 
Executive Service at will, with all of the tremendous dangers 
that that poses, instead of dealing with specific cases that 
very much deserve to be dealt with.
    Mr. Farenthold. Do you think the system is perfect as it 
is?
    Ms. Bonosera. No.
    Mr. Farenthold. Or do you come up with some tweaks?
    Ms. Bonosaro. Absolutely not. I mean, we've got--apart from 
what you do vis-a-vis the SES itself, for example, we think you 
need far more training and a straightforward handbook for 
managers on dealing with poor performance and problem 
employees. We think agencies have to limit their use of 
administrative leave to ensure it is used appropriately. We are 
well aware of cases that have dragged on, people are put on 
administrative leave for months and months and months. We're 
also aware of agencies that are ignoring IG recommendations, 
which are appropriate and based upon their investigation. So 
there are a lot of issues here that are contributing to this 
situation.
    Mr. Farenthold. Thanks so much. I am way over on my time. 
We are about to run up on votes. I do want to give Mr. Lynch 
and Mr. Walberg, if they have additional questions, an 
opportunity.
    Mr. Lynch. Mr. Retherford, under the standards that are in 
place right now, you can remove somebody for malfeasance; 
right?
    Mr. Retherford. For misconduct--yes. Yes. You can.
    Mr. Lynch. Why can't we do that? Why can't we, you know, go 
after these employees? I mean, would part of that--would part 
of that--look, if an employee conceals that they're--that 
they're manipulating the wait times and hurting our veterans, 
that would seem to qualify as malfeasance and misconduct. We 
can fire them.
    Are you saying that even if we fire them, having done that, 
and concealed that from their evaluators, we can't take back 
the bonus? Is that what you're saying?
    Mr. Retherford. We don't have the authority--we don't have 
the authority, Congressman Lynch to do that right now.
    Mr. Lynch. All right. Thank you, that is good to know.
    Ms. Bonosera, thank you for your help this morning.
    Some of my colleagues are suggesting that we apply an at-
will standard for all employees across the SES. The problem I 
have with that is the last time we tried that, every time the 
administration changed, a new president would come in. If he 
was a Democrat, he would fire all the Republicans and put all 
Democrats in. And if the Republican President got elected, he 
would fire all the Democrats and put all Republicans in. So--
and it really--it stopped the government from working even 
closely to what we would expect.
    I don't want to go back to that point. I don't want to go 
back to that point. And I don't think applying an at-will 
standard, you know, so that you serve at the will of your boss, 
you know, the President of the United States, and they can kick 
whoever they want, whether they are doing a good job or not, I 
don't think that's the way we should go. But I'd like to hear 
your thoughts on this idea that we go to and at-will standard 
across the board.
    Ms. Bonosera. Well, we're terribly worried about it. We 
know already that there are a good number of very talented, 
able GS-14s and 15s who would make terrific SES candidates who 
aren't interested. They look at this situation, they look at 
the broken pay system, pay for performance, they look at the 
pressure on these senior executives, they look at the current 
atmosphere of guilty till proven innocent, they look at having 
to deal with political appointees, be on call 24/7. Say, you 
know what? I don't need that. I'm very happy where I am.
    So we are terribly concerned about the next generation.
    I think if we go to at-will employment, I am really fearful 
for what we're going to see by way of candidates and with the 
number of executives retiring government-wide. It is a real 
concern. I mean, if we want the taxpayers to get the quality 
career leadership they deserve, I think we've got to be far 
more thoughtful about the kind of reforms we do to the Senior 
Executive Service.
    Mr. Lynch. I agree. And I yield back.
    Mr. Farenthold. Thank you very much. They have just called 
for votes in the House, but we--we're close enough and have the 
subway across here from Rayburn that we'll be able to allow Mr. 
Walberg one more round of questions.
    Mr. Walberg. I thank the chairman, and I'll be brief.
    Ms. Bonosera, let me just go back to the issue of 
compensation. You stated that the balance of risk and reward 
within the SES has eroded over the years because they are being 
asked to take on more duties and work longer hours without the 
same compensation given to general schedule workers.
    Ms. Bonosaro. Well, that's part of the erosion. It's not 
without the same compensation.
    What we've seen happen is that there are an awful lot of 
senior executives who are supervising those in the general 
schedule who are earning more than they do. And that creates 
part of the disincentive, when a talented, able GS-14 or 15 
looks at the idea of moving into the SES, why would I do that?
    Mr. Walberg. Of course, why would I do that would be the 
opportunity to lead. Opportunity to set policy, opportunity to 
expand, to encourage people to do a better job.
    You know, I'm thinking that an average $161,000 per year, 
plus when you add the potential of salaried bonuses to about 
$233,000, and then benefits, approximately $70,000, in other 
words, total compensation potential of $300,000, and the 
ability to lead, to direct, to establish policy, to expand the 
capabilities, wow.
    Ms. Bonosaro. Well, I absolutely agree in terms of the 
ability to have an impact on the mission, to lead, to innovate, 
et cetera.
    The problem is that GS-15 is already getting those 
benefits, and they are probably, in many cases, earning very 
close to what that senior executive is earning. So the 
additional responsibility, plus the additional--the tremendous 
risk, I've often said it's like having one foot on a banana 
peel, no matter how well you do, is what's dissuading a lot of 
them. And it's not--my concept is what they're saying 
themselves. And I think that that's very worrisome.
    Mr. Walberg. Well, it is worrisome. And I guess I can 
understand that feeling.
    But, Mr. Chairman, as we--as we hold these hearings, I 
mean, we're talking about a much broader issue then.
    We have public servants that are serving at the will of the 
people expressed through us in establishing departments, in 
establishing agencies, establishing thrusts are necessary for 
the ongoing of this government. It is a special duty. They, 
indeed, could go out in the private sector, some of them, some 
of them. And I have met some of them that could make a better 
living. However, they've chosen this service. We need to 
perform it as honestly, uprightly, effectively, and as low cost 
as humanly possible and still giving credit where credit is 
due.
    And so I don't think it's a selling point to say that GS-
15s, 14s don't want to go in because they don't make any more 
money at that level when they would have the opportunity to do 
good public service for the people, establish a pattern, expand 
the opportunities to impact of this government.
    And, yes, if we did follow due process, if we did give 
incentives to continue serving well and also make it very clear 
that if you don't, it's not automatic that you stay, it might 
encourage some of these lower level--well, at the top of the 
pay grade until they go to that SES--encourage them with the 
fact that I can make an impact. I won't make any more income, 
maybe, I can make an impact.
    Having said that, Mr. Chairman, I think there's a problem 
that goes in attitude as well that responds in action. And I 
yield back.
    Ms. Bonosera. May I just say one thing in response? And 
that is that it isn't just the money. They are concerned, which 
they have expressed, has to do with they are subject to being 
geographically reassigned. They are--the younger ones are far 
more concerned about work/life balance, being available to 
their families.
    So the money is just one of the factors. So that there is 
not a sufficient attraction above and beyond. There is for a 
good number of them.
    Mr. Walberg. I understand that only 3 percent--forgive me 
for breaking in there--but only 3 percent have been reassigned 
to other agencies. I mean, we are talking pretty good security 
there, a lot better security than most of us people at this 
rostrum right now.
    Mr. Farenthold. Every 2 years, we have a job review.
    Thank you very much. You know, it is disappointing, in 
summation, that you've had these scandals specifically at the 
VA where everybody is looking for our veterans to be taken care 
of. And hopefully this is exception but not the rule. And we 
will continue on this committee our diligent oversight work 
over the entire Federal Government.
    I would like to thank our witnesses for being here. We were 
able to wrap this up in time for us to get to votes. We'll let 
you get back to your day job serving the taxpayers as well. 
Thank you for your participation, and we're adjourned.
    [Whereupon, at 10:29 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
